		
	
	
	
	
        ASSESSMENT	REPORT	
              13‐19	
                 	

	
                   	
                   	
     Federal	PKI	Compliance	Report	
          September	6,	2013	
                   	
	
	
	

                   	
	
	
	
	
Date	 	
September	6,	2013	
To	     	
Chief	Information	Officer	
From	
Inspector	General	
Subject	
Assessment	Report	‐	Federal	PKI	Compliance	Report	
Report	Number	13‐19	
	
Enclosed	please	find	the	subject	final	report.		The	Office	of	the	Inspector	General	
administered	a	contract	with	Ernst	&	Young	LLP	(E&Y)	to	provide	a	compliance	
report	of	GPO’s	Public	Key	Infrastructure	(PKI)	for	July	1,	2012	through																	
June	30,	2013.		E&Y	conducted	their	work	in	accordance	with	attestation	standards	
established	by	the	American	Institute	of	Certified	Public	Accountants.		
	
E&Y	concluded	that	GPO’s	assertion	is	fairly	stated	in	all	material	respects.		E&Y	also	
issued	a	Letter	of	Supplementary	Information,	concluding	that	the	GPO	Principal	
Certification	Authority	Certificate	Practices	Statement	conformed	in	all	material	
respects	to	the	GPO‐Certificate	Authority	and	Federal	PKI	common	policies.		E&Y	is	
responsible	for	the	attached	report	and	the	opinion	expressed	therein.			
	
 We	appreciate	the	courtesies	extended	to	E&Y	and	to	our	audit	staff.	 If	you	have	
 any	questions	or	comments	about	this	report,	please	do	not	hesitate	to	contact					
 Mr.	Jeffrey	C.	Womack,	Assistant	Inspector	General	for	Audits	and	Inspections	at	
 (202)	512‐2009	or	me	at	(202)	512‐0039.	


                                      	
Michael	A.	Raponi		
Inspector	General		
	
Enclosure		
cc:		
Public	Printer	
Deputy	Public	Printer		
General	Counsel	
U.S. Government
Printing Office

Report of Independent Accountants
Federal PKI Compliance Report
For the Period July 1, 2012 to June 30, 2013
                                           Table of Contents


Report of Independent Accountants ....................................................................... 1
Management Assertion ......................................................................................... 2
Letter of Supplementary Information ..................................................................... 5
Summary of Matters Relating to Project Personnel .................................................. 7




1308-1122712
                             EY LLP                   Tel: +1 703 747 1000
                             8484 Westpark Drive      Fax: +1 703 747 0100
                             McLean, Virginia 22102   ey.com




                                     Report of Independent Accountants

We have examined the assertion, dated August 16, 2013, by the management of the United
States Government Printing Office (“GPO”), that GPO’s Certification Authority (GPO-CA)
complied with certain requirements of its Certificate Policy (CP), Version 1.3.1 dated
August 17, 2009 and its Certificate Practices Statement (CPS) Version 1.7.2 dated February
21, 2013 for the period July 1, 2012 to June 30, 2013, as well as the requirements of the
Federal PKI Authority and all current cross-certification Memorandum of Agreements (MOAs)
executed by the GPO with other entities.

Management of the GPO is responsible for its compliance with those requirements. Our
responsibility is to express an opinion on management’s assertion about the GPO’s
compliance based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and accordingly, included examining, on a
test basis, evidence about GPO-CA’s compliance with those requirements and performing
such other procedures as we considered necessary in the circumstances. We believe that our
examination provides a reasonable basis for our opinion. Our examination does not provide a
legal determination on GPO-CA’s compliance with specific requirements.

In our opinion, for the period from July 1, 2012 through June 30, 2013, GPO management’s
assertion, as set forth in the first paragraph, is fairly stated, in all material respects.

This report is intended solely for the information and use of the GPO and the U.S. Federal PKI
Policy Authority and is not intended to be and should not be used by anyone other than those
specified parties.




August 16, 2013




A member firm of EY Global Limited                                                           1
                             EY LLP                   Tel: +1 703 747 1000
                             8484 Westpark Drive      Fax: +1 703 747 0100
                             McLean, Virginia 22102   ey.com




                                                                             August 16, 2013


                                     Letter of Supplementary Information

To the Inspector General of the United States Government Printing Office and the
Management of the United States Government Printing Office Certification Authority
(GPO CA):

This letter provides supplementary information to the examination performed by
Ernst & Young LLP of the assertion by the management of the GPO-CA regarding the
certification authority services it provides at http://www.gpo.gov/projects/pki.htm.

Management’s assertions were based on the American Institute of Certified Public
Accountants (AICPA)/Canadian Institute of Chartered Accountants WebTrust for Certification
Authorities criteria. GPO-CA’s management was responsible for its assertion. Our
responsibility was to express an opinion on management’s assertion based on our
examination.

Our examination was conducted in accordance with attestation standards established by
the AICPA and, accordingly, included examining, on a test basis, evidence about GPO’s
compliance with those requirements and performing such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a reasonable basis
for our opinion. Our examination does not provide a legal determination on GPO-CA’s
compliance with specified requirements.

The period for this examination was from July 1, 2012 through June 30, 2013. Our
examination was performed between February 14, 2013 and July 17, 2013.

We examined the Certificate Policy (CP) for the GPO-CA version 1.3.1, dated August 17,
2009, and the Certification Practices Statement (CPS) for the GPO Principal Certification
Authority (GPO-PCA) version 1.7.2, dated February 21, 2013. Multiple Root CAs were not in
operation at GPO-CA.

Our examination included, through our testing of management’s assertion, the evaluation of
GPO-CA’s operations for conformance to the requirements of its CPS and the evaluation of
GPO-CA’s operations for conformance to the requirements of all current cross-certification
Memorandum of Agreements (MOAs) executed by the GPO-CA with other entities. In our
Report of Independent Accountants dated August 16, 2013, we reported that management’s
assertion was fairly stated in all material respects.




A member firm of EY Global Limited                                                             5
We have compared the CPS for the GPO-PCA version 1.7.2, dated February 21, 2013, for
conformance to the CP for the GPO-CA version 1.3.1, dated August 17, 2009. We found, in all
material respects, that the GPO-PCA CPS is in conformance with GPO-CA CP.

We have compared the CPS for the GPO-PCA version 1.7.2, dated February 21, 2013 for
conformance to the FPKI Common Policy. For this analysis we utilized the Framework
Certification Practice Statement Evaluation Mapping Matrix, Version 2.8 (September 22,
2010). We found, in all material respects, that the GPO-PCA CPS is in conformance with the
requirements of the FPKI Common Policy.

We are independent of the GPO for the professional engagement period as required by the
AICPA Professional Standards.




A member firm of EY Global Limited                                                           6
                             EY LLP                   Tel: +1 703 747 1000
                             8484 Westpark Drive      Fax: +1 703 747 0100
                             McLean, Virginia 22102   ey.com




                                                                               August 16, 2013

                                     Summary of matters related to project personnel
                                           provided by Ernst & Young LLP

To the Inspector General of the United States Government Printing Office and the
Management of the United States Government Printing Office Certification Authority
(GPO-CA):

The GPO Office of Inspector General (OIG) has asked Ernst & Young LLP (EY or we) to provide
certain information to assist in its efforts to provide the Federal Public Key Infrastructure
Policy Authority (FPKIPA) with information about the individuals who performed work as part
of the WebTrust for Certification Authority (WTCA) examination services; these services are
performed in accordance with relevant American Institute of Certified Public Accountants
(AICPA) standards. The FPKIPA sets policy governing operation of the U.S. Federal PKI
Infrastructure, composed of: the Federal Bridge Certification Authority (FBCA); the Federal
Common Policy Framework Certification Authority (CPFCA); the Citizen and Commerce Class
Common Certification Authority (C4CA) and the E-Governance Certification Authority. EY
makes no representation regarding the sufficiency of this information for the purposes for
which this information was requested. That responsibility rests solely with the FPKIPA.

Educational level and professional experience

Client serving personnel (Professionals) EY has provided to the Agency have received a degree
from an accredited college or university (or its equivalent if the individual was educated
outside of the United States). Certain individuals may also have advanced degrees. The
majority of Professionals provided to the Agency are part of EY’s Advisory Services (AS)
service line. Recruiting efforts for the AS practice focuses on candidates with information
technology, accounting, finance and other business-related degrees. Hiring activities and
types of Professionals hired into each EY service line, including Assurance and Tax, are
generally the same as similar service lines and personnel of Deloitte, PwC and KPMG (who
along with EY, are the Big Four).

The experience levels of Professionals provided will vary based upon various factors including
age and length of time the individual has worked since receiving their degree. The amount of
professional experience of Professionals may not solely be related to a person’s employment
period with EY, as EY normally hires a combination of experienced Professionals and
Professionals who recently graduated from a college or university. In most cases, the
experience level within a rank classification of EY Professionals is generally the same as the
other Big Four.




A member firm of EY Global Limited                                                               7
Methodologies, policies and procedures

EY Professionals carrying out WTCA examinations are required to comply with policies and
procedures within the EY Global Advisory Q&RM Guide (“the Guide”) and related
methodologies. In those cases where we do not perform work directly under the supervision
and responsibility of Agency personnel as part of an engagement to provide loan staff, and we
provide management with our findings and recommendations in those areas where we observe
internal controls that, in our view, could be improved, the Guide requires the work and any
reports or deliverables to be in accordance with the Statement on Standards for Consulting
Services (CS100) of the AICPA. The initial adoption of, and any subsequent changes in,
policies and procedures have been reviewed and approved by EY’s Professional Practice group.

Professional certification and continuing education

EY encourages its Professionals to obtain a professional certification. In certain service lines,
obtaining a professional certification is a requirement for promotion. Individuals in AS are
required to obtain a professional certification to be promoted to Manager. In the AS service
line, the most common certifications are Certified Public Accountant (CPA) (or its equivalent in
other countries), Certified Internal Auditor (CIA) as recognized by the Institute of Internal
Auditors, Certified Information Systems Auditor (CISA) as recognized by ISACA, or Certified
Management Accountant (CMA) as recognized by the Institute of Management Accountants.

The continuing professional education requirements of the SEC (Securities and Exchange
Commission) Practice Section of the AICPA Division for CPA firms are the foundation of EY’s
professional development policy. Participation in professional development programs is
measured in units of continuing professional education (CPE) credit hours earned in our
educational year. EY’s educational year is July 1 through June 30. The EY policy for
compliance is as follows:

– Commencing with the first full educational year of employment, each professional must
  obtain at least 20 CPE credit hours each year and at least 120 CPE credit hours during the
  most recent three-year period.

– Professionals who were not employed during the entire most recent educational year are
  not required to earn continuing professional education credits in that year.

– Professionals who were employed during the entire most recent educational year, but not
  during the entire most recent two educational years, are required to have participated in at
  least 20 hours of qualifying continuing professional education during the most recent
  educational year.

– Professionals who were employed during the entire most recent two educational years, but
  not during the entire most recent three educational years, are required to have participated
  in at least 20 hours of qualifying continuing professional education during each of the two
  most recent educational years.




A member firm of EY Global Limited                                                             8
Professionals who hold a professional designation or certification other than the CPA
certification (e.g., CIA, attorney at law, CISA, CMA) may be subject to continuing education
requirements as part of that designation or certification. Completion of courses to meet these
requirements may be used to meet the firm’s CPE requirements as long as the courses also
meet the requirements of the AICPA’s SEC Practice Section.

Experience Auditing PKI Systems

The EY executive team assigned to the GPO project has experience in performing audits and
implementation of PKI systems and IT security. In addition, certain team members also have
participated in a number of other commercial PKI and WebTrust for CA examinations both as a
team member and as a quality reviewer. We have incorporated consultations with other EY
personnel who represent the firm on the AICPA WebTrust Task Force. EY’s client roster for PKI
projects for governmental agencies other than the GPO includes other US federal agencies as
well as foreign governmental monetary organizations.

We are available if you need any additional information or would like to further discuss this
memorandum.




A member firm of EY Global Limited                                                              9
Summary information for EY executives assigned to the engagement
                                                                         In compliance with
                                                             Years of       EY CPE policy
Name                        Rank        Certifications      experience        (Yes/No)
                                        CA (Switzerland),
Werner Lippuner      Principal                                     24           Yes
                                        CISA, CISM
James Merrill        Executive Director CPA, CISA                  31           Yes
                                        CISSP, CPA, CISA,
Bruce Hamilton       Senior Manager                                32           Yes
                                        CISM
Staci Angel          Senior Manager     CISA                       9            Yes




                                                                                      10
